<html>
<title> - CONCERNS REGARDING POSSIBLE COLLUSION IN NORTHERN IRELAND: POLICE AND PARAMILITARY GROUPS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 CONCERNS REGARDING POSSIBLE COLLUSION IN NORTHERN IRELAND: POLICE AND
                          PARAMILITARY GROUPS

=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2009

                               __________

                           Serial No. 111-65

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
52-985                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="593e2936193a2c2a2d313c3529773a363477">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                 BILL DELAHUNT, Massachusetts, Chairman
RUSS CARNAHAN, Missouri              DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
ROBERT WEXLER, Florida
             Cliff Stammerman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                      Brian Forni, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Raymond McCord, Sr., Belfast, Northern Ireland...............     7
Mr. John Finucane, Belfast, Northern Ireland.....................    25
Ms. Jane Winter, Director, British Irish Rights Watch............    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Raymond McCord, Sr.: Prepared statement......................    10
Mr. John Finucane: Prepared statement............................    31
Ms. Jane Winter: Prepared statement..............................    41

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Michael E. McMahon, a Representative in Congress 
  from the State of New York: Prepared statement.................    62


 CONCERNS REGARDING POSSIBLE COLLUSION IN NORTHERN IRELAND: POLICE AND 
                          PARAMILITARY GROUPS

                              ----------                              


                       THURSDAY, OCTOBER 22, 2009

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m. in 
room 2172, Rayburn House Office Building, Hon. Bill Delahunt 
(chairman of the subcommittee) presiding.
    Mr. Delahunt. Let me begin, and I want to welcome my friend 
and colleague from New Jersey who has been very active in these 
issues during the course of his public life, Chris Smith, who 
will serve as the ranking member since the official ranking 
member, Mr. Rohrabacher, is unable to attend today.
    Well, the Troubles in Northern Ireland refer to a period of 
over three decades of violence between the Nationalist 
community, mainly Catholic, and Unionist community, mainly 
Protestant. Paramilitary groups for both sides were used to 
intimidate segments of the population through violence and 
fear. Many innocent civilians were caught in the cross-fire. 
Since 1969, over 3,200 people have died as a result of this 
political violence. After years of fighting and many rounds of 
intense political debate, the Good Friday Agreement was signed 
in April 1998.
    This agreement called for a restoration of devolved 
government, including provisions on disarmament, policing, 
human rights, security normalization, status of prisoners, and 
that a change in Northern Ireland's status could only come at 
the consent of a majority of its people voting in a referendum. 
As we all know, however, decades of animosity and violence are 
sometimes difficult to overcome. Peace has not come easily for 
the people of Northern Ireland.
    Full implementation of the Good Friday Agreement has at 
times been problematic and difficult, with the newly created 
devolved government being suspended on four different 
occasions, most recently in October 2002, before finally being 
restored to its current state in May 2007 by the St. Andrews 
Agreement. The United States shares a common interest with the 
events taking place in Northern Ireland. According to the U.S. 
Census, there are currently an estimated 34.5 million Americans 
that can trace their ancestry back to Ireland. I happen to be 
one of them.
    The Secretary of State visited Northern Ireland's Stormont 
Assembly recently, drawing international attention to the 
standoff between Catholic and Protestant leaders over the 
transfer of police and court authority from London to Belfast, 
and I want to note and applaud these discussions currently 
underway and hope that a conclusion is reached in a way that 
satisfies both sides, and most importantly, does justice. With 
the peace process moving forward, I have been asked, why hold a 
hearing on events that took place in the past?
    Well, my answer is simple. I believe that a key factor in 
this peace process actually lies with the unsolved murders that 
occurred during the Troubles. Bringing them to the attention of 
the American people once more and seeking a public 
investigation will surely stir old emotions, but I believe it 
will go far in creating a lasting peace and genuine 
reconciliation. So that is why we are here today. I want to 
focus specifically on the misuse of informants and whether the 
steps that have been taken by authorities in recent years will 
help restore the trust and confidence to a group of people that 
have had to endure far too many years of heartache and loss.
    Old wounds can be difficult to heal, and they often 
highlight the failings of government or law enforcement 
authorities. The greatest tragedy is the one that can be 
prevented. Here in the United States, there has been 
considerable controversy focused on the Boston office of the 
FBI and its relationship and supervision of informants. I know 
that story well, having been the district attorney or the 
state's attorney in the metropolitan Boston area for some 22 
years.
    Verdicts in the tens of millions of dollars have been 
awarded against the government because of murders by informants 
that could have been avoided. Today we highlight two specific 
cases. On February 12, 1989, Patrick Finucane was shot multiple 
times in his kitchen in front of his wife and children, and on 
November 9, 1997, Raymond McCord, Jr., was kicked and beaten to 
death with a cinder block. We are indeed fortunate to have 
their family members here today with us to testify regarding 
the circumstances surrounding their deaths. And let me offer my 
condolences and that of the United States Congress to both 
families for your losses.
    A number of reports have examined the issue of state 
collusion in criminal activities in Northern Ireland, such as 
the retired judge, Canadian Judge Cory report and the Lord 
Stevens inquiries. In a moment we will hear from the former 
Police Ombudsman for Northern Ireland, Ms. O'Loan, whose 
report, Operation Ballast, exposed the crimes of an informant 
for the RUC, the Royal Ulster Constabulary, which included ten 
murders, ten attempted murders, and numerous assaults and 
weapons charges, all while being a paid informant collecting 
over 80,000 British pounds, or $120,000 American, over the 
course of more than a decade.
    Furthermore, it was particularly distressing that the 
Police Ombudsman faced countless obstacles while carrying out 
her investigation, including missing and destroyed homicide 
files and decision logs, as well as resistance to her interview 
requests. Retired Judge Cory said in his report, and I am 
quoting Judge Cory:

        ``Without public scrutiny, doubts based solely on myth 
        and suspicion will linger long, fester and spread their 
        malignant infection throughout the Northern Ireland 
        community.''

    Without allowing the people of Northern Ireland to fully 
understand and come to terms with the past, how can the 
government expect them to move forward? To address these 
concerns, the Government of the United Kingdom passed the 
Inquiries Act of 2005. This was designed to provide a framework 
under which future inquiries set up by ministers into events 
that have caused or have potential to cause public concern can 
operate effectively to deliver valuable and practicable 
recommendations in reasonable time and at a reasonable cost.
    Yet, respected voices expressed concern almost immediately. 
Amnesty International asked members of the British judiciary 
not to serve on any inquiry held under the Act, and Judge 
Cory--again, I am quoting Judge Cory--had this to say:

          ``It seems to me that the proposed new Act would make 
        a meaningful inquiry impossible. The commissions would 
        be working in an impossible situation. For example, the 
        minister, the actions of whose ministry was to be 
        reviewed by the public inquiry, would have the 
        authority to thwart the efforts of the inquiry at every 
        step.<greek-l>'' deg.
          ``It really creates an intolerable Alice in 
        Wonderland situation. There have been references in the 
        press to an international judicial membership in the 
        inquiry. If the new Act were to become law, I would 
        advise all Canadian judges to decline an appointment in 
        light of the impossible situation they would be facing. 
        In fact, I cannot contemplate any self-respecting 
        Canadian judge accepting an appointment to an inquiry 
        constituted under the proposed Act.''

    Certainly not a ringing endorsement, and I know both the 
Finucane and McCord families have their concerns with this Act. 
In a democratic society, only a full and transparent 
investigation of unsolved murders and inquiries into police 
collusion should take place, or the authorities risk losing the 
trust and confidence of the people. In a healthy democracy, the 
integrity of the justice system is absolutely essential, or 
democracy itself is at risk.
    Today we look forward to the testimony that will be given 
to this subcommittee as we weigh what, if any, actions Congress 
should take. And now, let me turn to my friend from New Jersey, 
Mr. Smith.
    Mr. Smith. I want to thank my good friend and colleague 
Chairman Delahunt, first of all, for convening this important 
and timely hearing and briefing on what remains unfinished and 
unresolved. There is no statute of limitations on murder, and I 
appreciate the chairman for convening this hearing and bringing 
this committee together to focus on these unresolved cases that 
absolutely must be resolved. I also want to welcome, a special 
welcome to our witnesses, or rather, welcome back, to Baroness 
O'Loan, Jane Winter, and welcome to John Finucane and Raymond 
McCord, and to everyone joining us this morning, including some 
of the real long-time advocates for peace, justice and 
reconciliation in Northern Ireland, including Jim McFarland, 
Michael Glass, Sean Pender, Malachy McAllister, and Father Sean 
McManus, among others who are here today and who have been 
steadfast in promoting justice and peace and reconciliation in 
Northern Ireland.
    Since April 1998, Mr. Chairman, much progress has been made 
toward full implementation of the Good Friday Agreement, and 
the policing reforms promoted by the Agreement have made an 
enormous impact in advancing peace and justice in the North of 
Ireland. Mr. Chairman, as you know, between 1997 and 2006, I 
chaired the first ever and a total of 11 hearings on human 
rights and the peace process in Northern Ireland. Each of those 
hearings focused in whole or in part on what we consider to be 
the lynchpin of a lasting peace in the North: Real and 
sustainable police reform.
    One of the messages we heard most consistently at those 
hearings was that, in order to endure, the peace process 
required a police force that both sides could have confidence 
in, and this would require accountability for past crimes as 
well as for the security forces' collusion with paramilitary 
groups. We heard this message from human rights organizations 
across the board, including Jane Winter of British Irish Rights 
Watch, but also from Baroness O'Loan and from John Finucane's 
courageous and gracious mother, Geraldine Finucane, from his 
brother, Michael Finucane, who is also here today, and from 
Param Cumaraswamy, the U.N. Special Rapporteur, from retired 
Canadian Supreme Court Justice Peter Cory, who investigated the 
possibility of collusion at the request of the Irish and the 
British Governments, and we heard the message most tragically 
and poignantly from Rosemary Nelson, human rights attorney who 
testified here in this very room about death threats she had 
received from RUC officers. She did that just 6 months before 
she was assassinated.
    All expressed that to move forward with confidence and in 
peace, there was a need to hold to account human rights abusers 
in the security forces. The wisdom of this message has been 
proven by events since 1998. The reform of the Royal Ulster 
Constabulary into the Police Service of Northern Ireland, with 
new badges and uniforms and a culture more hospitable to 
Catholic officers, has been a success, yet there are many, 
especially in the British Government, who think reform can stop 
there, that it doesn't require full honesty about and 
accountability for security services' collusion with 
paramilitary killers.
    I disagree. In fact, it was in this room 10 years ago that 
I and other members implored the Right Honorable Christopher 
Patten, Chairman of the Independent Commission on Policing for 
Northern Ireland, to work to ensure that his groundbreaking 
report, entitled ``A New Beginning: Policing in Northern 
Ireland,'' be just that, a beginning. The report mandated by 
the Good Friday Agreement needed to be a floor, not a ceiling, 
for systemic reform in law enforcement systems in Northern 
Ireland.
    I expressed disappointment at the time that the police 
reforms did not include a ``vetting process'' for the so-called 
bad apples, as he called them, because I believe, as so many 
human rights activists do, that if people who have committed 
egregious abuse in the past are in the same jobs or work up in 
the chain of command and are never held to account, then your 
reform is only as good as your weakest link. My opinion about 
the vetting process and holding people to account is no 
different today.
    Thus, I remain extremely disappointed that our friends in 
the British Government refuse to see the benefit of getting to 
the truth about serious allegations of collusion. We see this 
refusal, this blind spot, if you will, and the shocking refusal 
to live up to the Good Friday Agreement and the subsequent 
Weston Park Agreement, which requires a public judicial inquiry 
into the death of Patrick Finucane. We also see it in their 
refusal to make public previous government reports about Pat 
Finucane's murder and in the 2005 passage of the Inquiries Act, 
designed to restrict real, public and transparent investigation 
into the widespread allegations of collusion.
    It has taken enormous courage by a dedicated few to 
consistently follow the trail of collusion and fight for human 
rights of the victims and their surviving family members. For 9 
years, the fiercely independent Police Ombudsman for Northern 
Ireland, Baroness Nuala O'Loan, worked at great risk to her own 
security and that of her family. She always showed the utmost 
integrity and gave people on both sides of the divide the 
confidence to move forward with the policing aspects of the 
Good Friday Agreement.
    Likewise, Jane Winter, the heroic British director of 
British Irish Rights Watch, has taken great risks to offer her 
services to anyone of either community whose rights have been 
violated. The Finucane and the McCord families have already 
been devastated by killers enabled by colluding officials, and 
they bear risks in taking up the defense of human rights. So 
Mr. Chairman, I want to conclude by applauding our witnesses' 
contribution to police reform, as it is at the heart of 
sustained police and peace in Northern Ireland.
    They have provided guidance and insight to our Government 
and to this Congress, including to my bill and subsequent laws 
that suspended U.S. exchanges with the RUC until standards were 
set to vet out officers engaged in human rights abuses. Our 
witnesses have also provided great insights to officials in 
Northern Ireland, as well as successive Irish and British 
Governments. Without their wisdom and courage, I doubt police 
reform would have succeeded as well as it has, and I am eager 
to hear what we can do next to keep the reform and the peace 
process moving.
    I thank you again, Mr. Chairman, for convening this 
hearing, and I yield back.
    Mr. Delahunt. Thank you, Chris, and I want to acknowledge, 
we have been joined by two colleagues, Mary Jo Kilroy from Ohio 
and Mike McMahon from New York, and it is my understanding that 
Congresswoman Kilroy would like to make a statement, so please 
proceed, and then we will introduce the Baroness and listen to 
her testimony during the course of the briefing.
    Ms. Kilroy. Thank you, Mr. Chairman. As you know, I don't 
ordinarily sit on this committee and will have to return to the 
committee that I do sit on because we will have votes in about 
20 minutes, but I did want to thank you for your leadership in 
this issue and for holding this hearing. I want to thank all of 
the witnesses who have traveled here to present their 
testimony. I, as my colleagues have done, want to thank you and 
applaud you for your leadership and your advocacy.
    I also want to offer my condolences to the families who 
have lost their members through this kind of assassination and 
murder. I think it is critically important in order to achieve 
peace and justice and reconciliation that the truth of these 
killings be made public and that we get all of the facts out 
through independent and public judicial inquiries. I had the 
great pleasure of meeting Patrick Finucane on one of his tours 
in this country, and he was there to tell lawyers in the 
American legal system about what was going on in the legal 
system in the North of Ireland at that time, to bring out the 
importance of due process and openness in the court system.
    His assassination obviously was a huge blow to his family, 
but it was also a huge blow to the right to free speech. It was 
also a huge blow to the establishment of an independent 
judicial system and the right to counsel. It is very important 
that the facts of his assassination and that of Mr. McCord be 
made fully public, and I congratulate you for your work on 
doing that and thank again the chairman for his leadership, and 
I yield back.
    Mr. Delahunt. Thank you, Congresswoman, and I understand 
our friend and colleague from New York wishes to make a brief 
opening statement. Mike McMahon?
    Mr. McMahon. Thank you, Mr. Chairman. I will, to get the 
proceeding going, I will submit a lengthier statement for the 
record. I just want to commend you for holding this very 
important hearing, certainly for me as an Irish-American, but 
also for my district, where just this past weekend we hosted 
Foreign Minister Michael Martin and Ambassador Michael Collins 
as we dedicated bones of Irish immigrants from the 1850s that 
had been found in a mass grave in Staten Island.
    So the Irish experience, of course, is very important for 
me as it relates to this country, but also in Ireland as well. 
I had the privilege of being in Ireland in 2007 as part of a 
city delegation that met with Ian Paisley as he just was going 
to announce that he would move forward with the Good Friday 
Accords, and like many in this room, I am very concerned about 
the allegations of collusion and what it has meant to these two 
families, the loss of their loved ones, and so I join together 
with you, Mr. Chairman, committed to seeing that justice is 
provided in this case and that we get to a day where our hopes 
and aspirations for peace in Ireland are realized. Thank you.
    Mr. Delahunt. Thank you, Congressman.
    [Briefing off the record.]
    Mr. Delahunt. Why don't we call forward our panel, Ms. 
Winter, Mr. McCord, Mr. Finucane? And let me give a brief 
introduction of each of these witnesses, and before I forget, 
we are now convening a hearing.
    Raymond McCord, Sr., was born in Belfast. He is a 
Protestant from a strong Unionist family. He and his wife 
Vivienne had three sons, the late Raymond, Jr., plus Gareth and 
Glenn. When his son Raymond, Jr., was murdered in 1997, he 
embarked on a long quest for the truth, which led directly to 
the O'Loan Report, Operation Ballast 2007. He is a pipe fitter 
and a welder by trade and it has been my pleasure to have an 
opportunity to spend some time with Mr. McCord. Welcome.
    And Mr. Finucane. At 29 years old, John is the youngest son 
of Patrick Finucane, a human rights lawyer from Belfast who was 
murdered in 1989. He is a qualified solicitor practicing in 
Belfast and specializes in criminal defense work, having 
obtained a law degree in 2002 from Dundee Law School in 
Scotland. He is currently on the roll of solicitors in Northern 
Ireland, England and Wales. He has worked on a range of cases, 
mainly within criminal defense, but also coroner's inquests and 
police ombudsman investigations. All have included contentious 
and high-profile work, including the ongoing shoot-to-kill 
inquests from the 1980s, and historical, politically sensitive 
actions against the police.
    Jane Winter has been monitoring and researching the human 
rights dimension of the conflict in Northern Ireland since 
1990. Since 1995, she has been the director of British Irish 
Rights Watch, an independent human rights non-governmental 
organization whose services are available free of charge to 
anyone whose human rights have been violated because of the 
conflict, regardless of religious, political or community 
affiliations. She has received numerous awards and commands 
great respect within the United Kingdom and here in the United 
States.
    Welcome all, and let us begin with Mr. McCord.

STATEMENT OF MR. RAYMOND MCCORD, SR., BELFAST, NORTHERN IRELAND

    Mr. McCord. Mr. Chairman and members, I am most grateful 
for the opportunity to appear before this subcommittee. I 
request my written statement be entered into the record. I see 
this hearing as a lifeline that has been thrown to me and my 
family. I cannot help but be struck by the difference between 
the way I have been treated by Members of Congress and the way 
Unionist Protestant politicians have treated me. In 2008, when 
there was a vote taken in the Northern Ireland Assembly on my 
son's case, a majority of the Unionist politicians walked out.
    You can therefore see just what your support means to me. I 
look to the United States Congress as my last hope of getting 
justice for my son. He was brutally murdered in 1997 near 
Belfast. The killers belonged to a Protestant paramilitary 
group, the Ulster Volunteer Force. The man who gave the orders 
to kill my son is Mark Haddock. He was a long-time paid British 
Government agent, police informer and serial killer, as the 
Police Ombudsman's report of 2007 established.
    For nearly 10 years, I have campaigned for justice for my 
son and for those years the British Government, my government, 
that is, and the Police Service of Northern Ireland, my police, 
have blocked and stonewalled me. They have colluded and are 
still colluding with the killers of my son and many other 
victims. I really want to emphasize to the subcommittee that my 
son's case is not about police corruption. It is about police 
and state collusion with murder.
    The Good Friday Agreement of 1998 promised a new beginning 
to policing. My family and I have experienced no new beginning. 
We have only experienced cover-ups, lies and threats. 
Throughout the key period, the police were controlled by Ronnie 
Flanagan, the former head of the Special Branch and chief 
constable from 1996 to 2002. However, I do recognize there are 
many fine individual cops in Northern Ireland who weren't 
allowed to do their job.
    Sir Hugh Orde, who until very recently was chief constable, 
was seen as bringing a new attitude to policing, but even he 
retained Mark Haddock as a paid agent for 15 months after it 
was established that Haddock had been involved in many murders. 
Not long after Raymond's murder, as I began campaigning for 
justice, the UVF on one night covered the walls on Protestant 
houses near my home with the following message: ``Daddy 
Raymond, which son next, Gareth or Glenn? Your choice.''
    Hours earlier, they had smashed Raymond's headstone with 
hammers, one of three such attacks. Even though the names of 
the perpetrators were given to the police, I was the one who 
was arrested and put in a police cell to shut me up. It was one 
of many times the police arrested me for no reason other than 
to try to silence me. The continuing campaign of intimidation 
and death threats against my family and me is not random.
    It is controlled and organized and the perpetrators are 
known because the police and British intelligence have totally 
penetrated the UVF. The Ombudsman's report too has established 
this. In May 2009, the Irish National Caucus sponsored my visit 
to Capitol Hill. While here, the Northern Ireland Bureau in 
Washington arranged for me to visit the British Embassy to 
speak with Nic Hailey, the spokesman for justice and policing 
in Northern Ireland.
    Mr. Hailey never answered one question, never offered any 
explanation, and never uttered the slightest hope that I might 
get justice for my son. Why is there such a conspiracy of 
silence surrounding Raymond's murder? My son was an innocent 
22-year-old, a loving son and brother. He was not a threat to 
any person or state. Why has Mark Haddock had so much 
influence? How can he so shamefully blackmail the British 
Government and their security forces?
    What and who gives this murderer so much power? The answer 
is collusion. It effectively gives killers the power to control 
their government. Haddock's first murder was in 1993, which he 
admitted to two RUC detectives a day after the murder, but 
instead of being arrested, he was given money to go on a 
foreign holiday and continued to work as an agent and killer 
for another 10 years or more. There are questions which are 
central to my son's case, and which the British Embassy refused 
to answer.
    Why has no one been charged with Raymond's murder? Why was 
Haddock allowed to kill for so long and get paid for it? Why no 
action against present or former RUC/PSNI officers who refused 
to be interviewed or to cooperate with the Ombudsman's 
investigation? Why were police officers allowed to get away 
with admitting to coaching and babysitting suspects in sham 
interviews to ensure the suspects would not admit to murder?
    Police officers even got away with admitting they handed 
over a bomb to Haddock that was used in the Irish Republic. A 
democratic society requires that the police must not be above 
the law, rather, they must uphold it and be seen to do so, yet 
my son's case clearly demonstrates that in Northern Ireland, 
some police officers and their agents can literally get away 
with murder. This is not only collusion, but also collusion 
sanctioned from the very top.
    It is not about the corruption of a few bad apples. What 
does it do to Northern Ireland's society when the government 
pays serial killers? What does it do to the policing system 
when killers are given a wage increase of 60% after they commit 
their first murder? That is what happened with Mark Haddock 
when he murdered Sharon McKenna in 1993. This is the shocking 
collusion I have been battling against for 12 lonely years, but 
now it is my hope that with the help of the U.S. Congress, my 
son will at last be given justice and a great wrong will be 
righted.
    Thank you, Mr. Chairman and members, from the bottom of my 
heart. Thank you.
    [The prepared statement of Mr. McCord 
follows:]<greek-l>Raymond McCord deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you, Mr. McCord, for that very moving 
and poignant testimony. I think we all, those of us who are 
parents, can empathize with the pain and the desire for 
justice, not for revenge, but just for simple justice that you 
are seeking.
    Mr. Finucane?

   STATEMENT OF MR. JOHN FINUCANE, BELFAST, NORTHERN IRELAND

    Mr. Finucane. Mr. Chairman, members of the committee, my 
fellow speakers, ladies and gentlemen, my name is John 
Finucane. My father was Patrick Finucane, the Belfast solicitor 
murdered by lawless paramilitaries in 1989. My family and I 
have campaigned since his murder for a fully independent 
judicial public inquiry into the circumstances surrounding the 
killing. We have done so because of compelling evidence that my 
father's murder was part of an approved British Government 
policy of widespread collusion between the state and Loyalist 
paramilitaries, which incorporated state complicity in all 
types of illegal activity, up to and including murder.
    The campaign my family and I have conducted for the 
establishment of a public judicial inquiry into my father's 
murder has lasted for over 20 years. We have had only one 
objective from the outset, to discover and uncover the truth 
behind my father's murder. On the very night my father was shot 
dead, the 12th of February, 1989, my family knew the 
authorities were involved in some way, but we didn't know the 
details.
    We did know that my father had been subjected to constant 
threats from police officers during his professional career, 
threats that were never made to his face but rather to his 
clients while they were interrogated in the absence of their 
lawyer. Derogatory comments quickly escalated into threats. 
Threats quickly escalated into death threats, all of which came 
from the police. Less than 3 weeks before he was killed, a 
government minister, Douglas Hogg, MP, made a statement in the 
British Parliament that marked Pat and other solicitors for 
murder.
    He said, ``I have to state that there are in Northern 
Ireland a number of solicitors who are unduly sympathetic to 
the cause of the IRA.'' This comment was shocking and 
provocative at the time, but what was to prove even more 
sinister was its foundation. Hogg said at the time that he 
based his statement on ``advice that he had received,'' He did 
not reveal from whom, and it was later revealed, however, that 
he had been told this by police in a private briefing the year 
before.
    Over many years, my family and I persisted in seeking all 
of the facts surrounding my father's murder. This followed much 
investigation, lobbying, speaking out at every opportunity, and 
no little personal risk. My mother was forced to move from her 
home for several months as a result of death threats from 
Loyalist paramilitaries. Others have been attacked just for 
being part of the Finucane family. Even so, we have persisted.
    After much delay, the British Government was eventually 
forced to announce in 2001 that a judge of international 
standing would review our case and recommend a public inquiry 
if evidence of collusion was found. This was included as part 
of a larger intergovernmental agreement made between Britain 
and Ireland as part of the peace negotiations. The judge 
appointed was Peter Cory, former Justice of the Supreme Court 
of Canada.
    My family was not involved in the negotiations that led to 
the agreement. We did not feel that further examination was 
required to prove our case. We did not doubt the credibility or 
integrity of Judge Cory. We believed that this was simply a 
delaying tactic by the British Government. However, Judge Cory 
did ultimately conclude that evidence of collusion existed, and 
recommended a public inquiry in our case.
    In his final report, he said, ``The documents and 
statements I have referred to in this review have a cumulative 
effect. Considered together, they clearly indicate to me that 
there is strong evidence that collusive acts were committed by 
the British Army, the RUC Special Branch and the Security 
Service. I am satisfied that there is a need for a public 
inquiry.'' When his report was published, something that was 
delayed for some time by the British Government, Judge Cory 
stated that any appointed commission should have all powers 
normally associated with a commission of inquiry.
    The most important power is that a commission decides 
itself what matters should be considered and what should be 
made public. However, after the publication of the Cory Report, 
the British Government announced that a new law was required. 
The British Secretary of State at the time, Paul Murphy, said 
on September 23, 2004:

          ``The government has taken into account the 
        exceptional concern about this case. Against that 
        background, the government has concluded that steps 
        should now be taken to enable the establishment of an 
        inquiry into the death of Patrick 
        Finucane.<greek-l>'' deg.
          ``In order that the inquiry can take place speedily 
        and effectively and in a way that takes into account 
        the public interest, including the requirements of 
        national security, it will be necessary to hold the 
        inquiry on the basis of new legislation, which will be 
        introduced shortly.''

And he later explained that this was necessary because ``much 
of the material that would have to be examined in this inquiry 
is highly sensitive to national security 
issues.<greek-l>'' deg. <greek-l>`` deg.For example, many of 
the operational techniques that would be discussed in the 
inquiry would be used currently in the War Against Terror, for 
instance.'' And these operational techniques that he referred 
to were analyzed further in a different investigation into my 
father's murder. It was carried out by the former Commissioner 
for the London Metropolitan Police, Lord John Stevens, and the 
techniques in question were confirmed to be collusion.
    Lord Stevens summarized them in this way, and I again 
repeat what another witness, Nuala O'Loan, has already referred 
to:

        ``My inquiries have highlighted collusion. The willful 
        failure to keep records, the absence of accountability, 
        the withholding of intelligence and evidence, and the 
        extreme of agents being involved in murder. These 
        serious acts and omissions have meant that people have 
        been killed or seriously injured.''

    This is not the only report written about the murder of my 
father. The case is being examined by dozens of organizations 
and individuals of international repute, and all have concluded 
that the evidence in the case demands an independent public 
inquiry. One series of reports was prepared by Human Rights 
First, formerly the Lawyers Committee for Human Rights, and 
charts the progress of the case for an inquiry into the murder 
of Patrick Finucane over an entire decade from an international 
perspective.
    It is illustrative because it demonstrates the extent to 
which the case has grown in strength over the years, and 
highlights the determination of the British Government to 
suppress the truth. The original examination of the case by 
Human Rights First took place in 1992 with a delegation led by 
Dr. Michael Posner. Subsequent reports were published in 1995 
and 2003, and with each new assessment, more information was 
uncovered and made public.
    The first report found ``credible evidence that Finucane's 
effective legal advocacy and politically sensitive cases 
resulted in his harassment and ultimately led to his killing. 
We also find credible evidence suggesting collusion between 
elements within the security forces and Loyalist paramilitaries 
and Finucane's murder.'' The report continued:

        ``There is also evidence pointing to the involvement of 
        the RUC in the form of knowing acquiescence or perhaps 
        even instigation. Two independent sources told us that 
        the RUC had a double agent in the Ulster Defense 
        Association. According to these sources, the double 
        agent informed the RUC that Finucane was a target, 
        assuming they would prevent the murder from taking 
        place.''

    The deputy chief constable of the RUC at the time, Michael 
McAtamney, wrote to the Lawyers Committee complaining about the 
contents of the report. In a letter dated the 25th of January, 
1993, he said:

        ``The shortcomings of the report are such as to lead me 
        to the conclusion that it does not merit detailed 
        comment, and in its present form is not capable of 
        being constructively amended. Among its many defects, 
        there is a repetition of unsubstantiated allegations, 
        as if these constituted evidence of security forces or 
        official misconduct. One is left with the distinct 
        impression of a mass of allegations resting on a 
        limited, unrepresentative base of sources.''

    The Northern Ireland office gave a similar response. In 
particular, it rejected any allegation made about the possible 
involvement of the RUC:

        ``We particularly believe that the report, especially 
        in the section on Mr. Finucane's murder, is unfair to 
        the security forces, and especially the Royal Ulster 
        Constabulary. Unsubstantiated allegations are no 
        substitute for evidence, particularly in view of the 
        very serious charges you lay at the RUC's door.''

    This is, and was, typical of official reaction to the 
allegations being leveled at the police and the security 
forces. It is almost surreal to look back at these comments in 
light of what we know today, namely, that all of the 
allegations were true, but denied as false and malicious. Ten 
years after they released the first report, Human Rights First 
published an up-to-date document entitled ``Beyond Collusion,'' 
a collection of information gathered by many people over the 
intervening years.
    The report is introduced with the following statement:

        ``Over the last 10 years, the Lawyers Committee has 
        conducted a series of missions to Northern Ireland to 
        investigate reports of official collusion in the 
        murder. The evidence that has emerged over this period 
        extends far beyond isolated acts of collusion by 
        individual members of the security forces, and 
        implicates the very foundations of the British 
        Government's security policy in Northern Ireland. There 
        are many allegations that units within both the British 
        Army and the RUC were involved at an institutional 
        level in the murder and subsequent cover-up.''

    Recent correspondence between the British Government's 
Northern Ireland office and my family via our legal team 
underscores a continued policy of delay. I wish to place copies 
of this correspondence on the record of this hearing, and ask 
that they be read into the record. I believe they show a lack 
of any real commitment on the part of the British Government to 
fulfill its agreement to hold an inquiry. One excuse after 
another is presented.
    In a letter from February 2006, the British Secretary of 
State for Northern Ireland, Peter Hain, explained that we were 
wrong about the British Government's intentions. He wrote to us 
saying, ``It is simply not the case that the Inquiries Act is 
the British Government's way of changing the rules for this 
inquiry. The Act was a general reform measure introduced 
following a 3-month consultation exercise in 2004 and a study 
carried out in 2002.''
    He went on to explain the necessity for restricting 
information was because, and I again quote from this letter, 
``the volume of sensitive material is far too great. It is 
likely that any inquiry into your husband's death will want to 
examine all the potentially relevant information held within 
government and the law enforcement agencies, and all the 
evidence collected by the different investigations carried out 
so far.''
    In Autumn 2006, the Northern Ireland Secretary of State 
Peter Hain decided to cease work on preparations for the 
inquiry, and we were first told of this in a letter from the 
Northern Ireland office 1\1/2\ years after he had made his 
decision. He decided to stop work because, ``in light of the 
Finucane family's continuing opposition, it was no longer 
justifiable to continue to devote public money to preparations 
for an inquiry which the family would refuse to accept under 
the terms of the Inquiries Act.''
    Correspondence received during the intervening period made 
no mention of Mr. Hain's decision. We have since been 
discussing with the British Government how and when they 
propose to complete preparations for the inquiry, and also how 
we will resolve the issues of transparency and independence. 
This has not been easy. The current Secretary of State for 
Northern Ireland, Shaun Woodward, has been reluctant to discuss 
ways of moving the situation forward or even meet with my 
family.
    In a letter to mother Geraldine shortly after he assumed 
his post in Northern Ireland, he dismissed the idea that a 
meeting to discuss the inquiry could be beneficial, and he 
wrote:

          ``You met Peter Hain in February 2006, and he 
        subsequently wrote to you responding in detail to the 
        concerns you raised. I have considered carefully all 
        the points previously made, and I share my 
        predecessor's view that an inquiry under the Inquiries 
        Act would be independent.<greek-l>'' deg.
          ``Against that background, it is not clear to me that 
        a further meeting is likely to expose new points which 
        have not been identified previously. If that assumption 
        is mistaken, please let me know, and in those 
        circumstances, I will ensure that we meet.''

Mr. Woodward did not mention in his letter that in the 
meantime, no further work would be done on the inquiry. As I 
stated earlier, this was not revealed until April 2008.
    To date, the Secretary of State has not met with my family. 
It is only recently that they have conceded even a meeting 
between our respective legal advisors. The commitment to hold 
an inquiry has been postponed and delayed as much as possible 
using every possible excuse. The inquiry was even diverted into 
the work of the consultative group in the past, which was 
entirely unnecessary, since the group was tasked with searching 
for mechanisms to address the legacy of the conflict, and the 
mechanism for resolving our case has been decided already by 
the two governments.
    The inclusion of our case by the consultative group was not 
a development that my family welcomed, and we met with the 
group to express our concerns. It is disappointing that they 
did not respect our wishes in their final report, as we have no 
wish to become part of any overall truth commission forum. 
Perhaps most weighing of all is the suggestion by the British 
Government in their most recent correspondence that an inquiry 
should not now be held at all, in the public interest.
    They claim that the passage of time since the murder has 
rendered it of little relevance to the issues faced by Northern 
Ireland today. The fact that it is the government that has 
caused the lion's share of delay appears to count for very 
little. Much of the delay was occasioned by the insistence of 
the British Government that a new law to control inquiries was 
required. They asserted that any inquiry would be capable of 
getting to the truth by using this new legislation, but it is 
an assertion that does not stand up to scrutiny.
    The Inquiries Act 2005 prevents any inquiry from acting 
independently. It forces the tribunal, no matter how 
independent----
    Mr. Delahunt. Mr. Finucane?
    Mr. Finucane. Yes?
    Mr. Delahunt. Could you suspend for a minute, because we 
are going to have a series of votes that will probably require 
about 40 minutes, so I am going to ask Ms. Winter if you will 
all bear with us, but before we leave to vote, and again, my 
apologies, but this is what happens in this body, could you 
wrap up your testimony so that when we come back we can have 
Ms. Winter commence hers?
    Mr. Finucane. Yes, Mr. Chairman. I would just like to 
finish by reminding Mr. Chairman and everyone here today that 
these houses of Congress have also endorsed the prompt holding 
of a public inquiry in accordance with the intergovernmental 
agreement. This was contained in H.R. 740, passed by this House 
on the 18th of May, 2006. An identical term was passed by the 
Senate on the 24th of May, 2006, and the thing that I want to 
know most of all is that I want to know the truth about my 
father's murder.
    I want to know who was responsible. I want to know why no 
one warned him he was in danger, and I want to know why he 
wasn't protected. I want to know who covered it up. My brother 
Michael, who is here with me today, wants the same thing, as 
does our mother Geraldine and our sister Catherine. All of my 
family and my friends and my father's friends want this. If the 
British Government is serious about resolving the situation in 
Northern Ireland for good and building a lasting peace, then 
all we ask is this one simple thing.
    They cannot give me back my father, but the least they can 
do is tell me the truth. Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Finucane 
follows:]<greek-l>John Finucane deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you, Mr. Finucane, and before we 
recess, I want to acknowledge the presence of Mr. Engel from 
New York, and I hope he can rejoin us when we return, although 
I know all members have a very frenetic schedule, so we shall 
come back and we will look forward to hearing from Ms. Winter.
    [Brief recess.]
    Mr. Delahunt. I understand that there are some time 
constraints, so Mr. Smith, if you would come up here. If Ms. 
Winter would come to the table, and if you could proceed, Ms. 
Winter, give us a brief synopsis of your testimony, I know that 
you have a, is it a 1:15 plane or a train, or. . .?
    Ms. Winter. It is a 2 p.m. train.
    Mr. Delahunt. A 2-p.m. train.
    Ms. Winter. Yes.
    Mr. Delahunt. Give it to us in 3 or 4 minutes, and I 
understand Mr. Finucane also has that time frame, so we want to 
get you out.
    Ms. Winter. Thank you very much.
    Mr. Delahunt. Please proceed.

 STATEMENT OF MS. JANE WINTER, DIRECTOR, BRITISH IRISH RIGHTS 
                             WATCH

    Ms. Winter. Thank you, Mr. Chairman and members of this 
honorable subcommittee for the opportunity to give evidence 
before you today. This is a summary of the longer written 
submission which I request be read into the record.
    Mr. Delahunt. Without objection.
    Ms. Winter. We have been studying collusion in Northern 
Ireland ever since our inception in 1990, and the first case 
that we examined was that of Patrick Finucane, and of course we 
have also worked on Raymond McCord's case since then, and many, 
many others. Indeed, until very recently, it was the NGOs who 
were systematically researching and exposing collusion in 
Northern Ireland. Collusion is a very difficult thing to 
measure because it is illegal and clandestine.
    No one knows its true extent, but all the work on collusion 
throws up patterns of behavior which suggest that it has become 
systemic. It is significant that the Consultative Group on the 
Past set up by the government to look at how Northern Ireland 
can deal with its very troubled legacy and move forward into a 
better future cited collusion as an issue that must be 
examined. At first, successive governments denied that 
collusion existed, but today it is widely accepted that it has 
taken place, partly thanks to the groundbreaking report issued 
by Baroness Nuala O'Loan following her investigation into the 
death of Raymond McCord, Jr., and to the work done by Lord 
Stevens in the Finucane case.
    There are currently three inquiries taking place in 
Northern Ireland into alleged collusion. These are the cases of 
Rosemary Nelson, Robert Hamill and Billy Wright, and I think 
that speaks for itself in terms of the fact that collusion is 
now recognized as a genuine problem. What concerns the BIRW is 
that, as Nuala O'Loan and Lord Stevens' work has shown, these 
were not exceptional cases. They have simply become emblematic 
of collusion, which has permeated policing and in particular 
the intelligence services in Northern Ireland from the early 
1970s to the present day.
    Collusion has become, if you like, mainstreamed. A key 
feature of collusion has been the suppression of reports into 
contentious deaths in Northern Ireland, most notably, the 
reports of the Stalker/Sampson inquiry and the three reports 
produced by Lord Stevens. The intelligence services in Northern 
Ireland have been heavily dependent upon recruiting informers 
amongst the paramilitary organizations, both Republican and 
Loyalist.
    Loyalists regarded themselves in many ways as being on the 
same side as the security forces, and many of them were prime 
intelligence sources for the security forces. In this sense, 
they were double agents. However, the duality of their role 
made them difficult to control from the point of view of the 
intelligence services, as we have heard in the case of Mark 
Haddock from Raymond McCord. Republicans have not seen 
themselves as being on the same side as the intelligence 
services, so different methods have been used to recruit them, 
mainly involving deals and bribery.
    Most nations have some form of intelligence service. There 
can be no doubt that intelligence is necessary to combat the 
many scourges that beset modern society, including terrorism, 
organized crime, people trafficking, and the drugs trade. 
However, intelligence has only two legitimate aims: The 
prevention and the detection of crime. Most unfortunately, in 
Northern Ireland, it has become apparent that gathering of 
intelligence for its own sake----
    [The prepared statement of Ms. Winter 
follows:]<greek-l>Jane Winter deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Delahunt. If I can interrupt you, I thought what was 
fascinating, and I knew you were here listening to the 
Baroness' testimony, she related that one anecdote about the 
stopping of a motor vehicle based on informant information, and 
yet, the three individuals in the vehicle were all informants. 
That is truly an Alice in Wonderland vision, if you will, where 
up is down and down is up, and if we are going to do something 
about crime, maybe if all of the informants were prosecuted and 
incarcerated, we would see a dramatic reduction in crime.
    Ms. Winter. We would, but I think the difficulty there 
would be that many of them could say that they had been 
coerced, that they had been put under pressure, on them or on 
their family, and that they were in an impossible position, and 
it is not simply an issue of those who act as informants. It is 
those who recruit them and those who handle them and mishandle 
them.
    Mr. Delahunt. Right. You know, let me--we talk about 
collusion, but I think there is something more fundamental, and 
let me put this out to all of you, but let me direct it first 
to Ms. Winter. Obviously, it is difficult to determine whether 
collusion has occurred, because as you said, we are operating 
in a clandestine world, but the predicate to determining the 
truth has to be information. All too often in this country now, 
there is, in my judgment, a classification system that has no 
basis in reality.
    I know I have attended classified briefings, and in my 
opinion and in my judgment, they ought never to have been 
classified. I guess what I am looking for--and what occurred 
recently was, and I was surprised, to be honest with you, that 
the Obama Justice Department continued to press the British 
Government not to reveal certain information in a case that was 
being pursued in British courts, and the British Government 
would not release that particular information.
    I have grave concerns about the functioning of democracy 
with a continued over-reliance, without compromising national 
security, on classification. How do we ever get to the point 
where the truth of the murder of John Finucane's father and 
Raymond McCord's son ever come to light if we continue to say, 
we can't, that is a state secret, that implicates national 
security, and when we review these records decades later, we 
discover, that was an inaccurate assessment?
    That information has to be made public, in my judgment, if 
we are going to continue to maintain faith of the American 
people and the people in Ireland and Britain and Wales in terms 
of the integrity of the criminal justice system.
    Ms. Winter. I agree with you, Mr. Chairman, and just to 
give you an anecdotal example, in Judge Cory's report about 
Rosemary Nelson, I myself was mentioned, but the government saw 
fit to refer to me as Ms. D. Now, there was no secret about who 
I was and I had no problem with being named in that report, but 
that is a good example of that----
    Mr. Delahunt. I mean, isn't it really absurd?
    Ms. Winter. Yes.
    Mr. Delahunt. I mean, we are here with, we have present 
here two families that have endured a horrific loss, but this, 
I daresay, is the tip of the proverbial iceberg. What else has 
gone on that we are unaware of? What else has gone on? And for 
democracy to be shielded from, or truth, if you will, to be 
shielded by national security, there has to be some other 
mechanism outside of intelligence agencies that reviews (A) the 
classification issue, and whether it is truly a state secret, 
or whether there are grounds for that information to be 
revealed. We cannot continue, as the world's leading 
democracies, to continue going in that trend.
    Ms. Winter. I think that is where the role of lawyers is so 
important. Certainly in the Finucane case, the lawyers for 19, 
20 years now have been asking questions and refusing to accept 
no for an answer, and a lot of information has come out. In the 
case that you referred to about British and American 
intelligence, it was the judiciary who said, this is not 
information which should be classified, and we rely on their 
independence to----
    Mr. Delahunt. Right, but it doesn't get to the judiciary.
    Ms. Winter. Not always, no, but I guess it is our job as 
NGOs and lawyers to try and make sure that it does.
    Mr. Delahunt. I guess what I am saying, Ms. Winter, is that 
it ought not to be. It ought not to be.
    Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman. Let me just 
say, we shouldn't be here today. The British Government made 
solemn commitments which helped bring into bloom the Good 
Friday Agreement at Weston Park. Those agreements have not been 
lived up to, and I say that with great sadness. I would ask, 
Mr. Chairman, that a letter that Congressman Neal and I sent to 
the Secretary of State for Northern Ireland last spring, this 
past spring, be made a part of the record, as well as two other 
pieces of correspondence, including an answer back from the 
Right Honorable Shaun Woodward, in which he says, of Mr. 
Finucane, he says, ``We are currently in correspondence with 
their,'' your, ``legal advisors about the basis upon which an 
inquiry would be established. We have offered to meet with 
their legal team in the summer. Only once these discussions 
with the family and their legal representatives have concluded 
will we be in a position to take a decision about the way 
forward.''
    I am wondering if those meetings took place, why does it 
seem so unclear to the British Government as to how they should 
proceed? Judge Cory couldn't have been more clear. As he said 
in his letter, and he said it repeatedly in testimony here in 
Washington as well as elsewhere, that the 1921 Public Inquiry 
Act is clearly what he had in mind in terms of the legal 
framework in which the inquiry would ensue. He also made it 
very clear, as did we, as did so many others, that as the 
Inquiries Act was being considered by the House of Commons and 
then eventually enacted into law, that we saw that there was a 
cover-up in the making, and warned them that we thought that 
this was being done in a way to give veto power over evidence, 
over information that could be damning to certain people within 
the British Government and within the RUC and elsewhere.
    So, about those meetings, did they occur, or where are we 
in terms of the inquiry, because it seems to me that there 
seems to be a calculus being made on the part of leaders in the 
British Government that if you delay this long enough, it will 
somehow go away. And again, I want to thank Chairman Delahunt 
for convening this hearing and making it absolutely clear that, 
in a bipartisan way, this is not going away on this side of the 
Atlantic.
    I don't think it is going away in Northern Ireland either. 
As we have seen with our own civil rights cases that date back 
to Martin Luther King's days, there is no statute of 
limitations on murder and on collusion, and as Nuala O'Loan 
said, there is no crime of collusion, but there are crimes of 
aiding and abetting, conspiracy, and other misconduct by police 
or other officers who are in some kind of law enforcement or 
government employment.
    So first of all, Mr. Finucane, if you could answer those 
questions, and----
    Mr. Delahunt. Mr. Finucane, before you respond, if the 
gentleman would yield to me----
    Mr. Smith. Sure.
    Mr. Delahunt. I have been visited by members of the 
Parliament, the British Parliament, about their concern about 
the issues I just discussed regarding secrecy and state 
secrets, and the fact that they share those concerns. It wasn't 
specific to the Finucane case or the McCord case, but I detect 
within the House of Commons a genuine concern about the free 
flow of information to those who are members of Parliament and 
who have oversight responsibility and who share our concern 
about accountability, and Mr. Smith, maybe you and I or some of 
our colleagues ought to consider contacting members of the 
British Parliament, the House of Commons, and work in 
conjunction in a collaborative effort to discuss, not just 
these cases, but the mechanisms which I am sure could be agreed 
to that would ensure that there is accountability among the 
intelligence services, and I think I daresay that many in the 
intelligence circles would welcome that clarity, because they 
ought not to have to operate in this murky world where many of 
them really are, I believe, unclear as to where the lines are 
and what they will have to respond to.
    It is just a suggestion and you can comment on that. Mr. 
Finucane, feel free to respond now to Mr. Smith's question.
    Mr. Finucane. Thank you.
    You said at the start that we shouldn't be here, and I 
agree with that, but if it is not too much of a contradiction, 
I again thank the committee and the chairman for inviting me 
here and I am glad to be here to address our concerns. In 
relation to whether we have met with the British Government, 
and by way, it would be our legal team, no, in short. That 
meeting hasn't happened. It would be our conclusion, and I 
believe it is reflected in the correspondence that has been put 
into the record today that that has been as a result of a 
deliberate policy of delay engaged on behalf of the British 
Government.
    There is due to be a meeting in November between the 
British Government's legal advisors and our legal advisors, and 
it is very much a meeting that we have pushed. Whilst we are 
not happy with the Inquiries Act, we see no merit in standing 
outside shouting and complaining about it. We want to be 
involved in an inquiry that is credible and we have made steps 
to engage with the British Government to see, is there any 
common ground that we could possibly share to enable an inquiry 
to get up and running, because delay does not suit my 
interests, my family's interests, and I would respectfully 
submit, the interests of this committee and the international 
human rights community.
    That meeting is due to take place in November, and if you 
will allow me just to comment briefly as to why the meeting is 
taking place, it is concerned primarily with what is called a 
restriction notice, the power by which the Inquiries Act gives 
a minister in the British Government the power to withhold 
evidence, the power to have hearings held in private, and what 
I would say in respect of the issue of national security, my 
family does not wish to be reckless or immature with regard to 
issues of national security, but to quote Justice Peter Cory, 
who put it a lot more eloquently than I could, he stated that 
legislation prior to the Inquiries Act was capable of dealing 
with the security of the realm, as he put, quite sufficiently, 
and what we want, we knew that we were only going to get one 
shot at an inquiry and we want that to be a credible shot.
    We don't want to go into an inquiry knowing that it is not 
going to get to the truth and then complain about it at the 
end. What we want is a level playing field whereby, if there is 
an issue, perhaps dealing with national security, if that does 
come up, then it is the inquiry itself, it is the panel of 
judges itself who makes that decision. We may not like the 
decision. The British Government's lawyers will make their 
representations, we would make our representations, but we have 
to have trust and faith in the inquiry as it is constituted.
    The way it stands currently is that even if the inquiry 
itself would agree with our representations, the British 
Government would have the ultimate control, and that is what we 
are attempting to negotiate with the British Government at 
present, but it is a frustration that that hasn't happened as 
yet. I was also very encouraged by the opening remarks by, I 
think, everybody, to be fair, in the committee, and that is 
that I think a democracy and society is greatly undermined, and 
I echo your concerns, Mr. Chairman, if these matters are shied 
away from, and it is unfortunate that presently within Northern 
Ireland there remains elements who wish to capitalize upon any 
aspect of insecurity that still exists in our society.
    I believe shying away from dealing with these matters only 
adds to that insecurity and I don't think would assist or lead 
toward the building of a very concrete and lasting peace. I 
think it is a difficult issue. There is no shying away from 
that, but I think it is an issue that must be met, and I would 
also ask that this committee keeps up its work and keeps the 
focus and the pressure on this issue. There may or there may 
not be a change of government in the United Kingdom in the near 
future.
    My father's murder took place under a Conservative 
government. We would allege that the cover-up is continued, you 
know, in a bipartisan fashion, whether it is Conservative or 
Labor, but we would certainly not be optimistic that a 
Conservative government would have any appetite toward looking 
at these matters, as they would probably say it is a matter 
that is probably best left in the past, and I would again 
encourage all of you who are here today to not allow them to 
say that.
    Mr. Delahunt. Let me interrupt, because what I found 
fascinating, Mr. Finucane, are those MPs that have visited with 
me are Conservative, and clearly, my politics tend to go in 
another direction, and yet, the most outspoken critics of 
secrecy, if you will, in government, at least those that I have 
dealt with, are Conservative members of the House of Commons, 
which I found rather ironic and surprising.
    Mr. Smith. You know, let me just comment briefly that I 
actually brought up a resolution at the OSCE, the Organization 
for Security and Cooperation in Europe, about defense attorneys 
and the protection of defense attorneys, that you put sandbags 
around those men and women who defend, even if it is not 
``politically correct.'' I am glad to hear the chairman talk 
about a new openness on the part of the MPs, because as a 
result of that, the British members of the Parliament at the 
OSCE, and they had a sizable delegation, wouldn't even meet 
with us and discontinued for the next year what had been a 
friendly get-together every year.
    Thankfully, we are back to doing that again, over some 
cocktails or tea or whatever, but it hit a raw nerve then and 
hopefully, some time and new people in the Parliament opens up 
an opportunity to say, you know, impunity can't be covered up, 
and so I thank you. I am glad to hear some of those new 
perspectives because I was persona non grata when I offered 
that resolution at the OSCE Parliamentary Assembly with regards 
to the British parliamentarians.
    Let me just ask a couple of very brief questions. Nuala 
O'Loan had said earlier, Mr. McCord, how 20 recommendations 
were in her report, which were accepted by the chief 
constable--and Ms. Winter, you might want to touch on this as 
well--then what? You know, it is as if reporting is done and 
the actionable evidence that may be gleaned from it does not 
get used. Where are the prosecutions? I mean, your frustration, 
just like Mr. Finucane's, has to be beyond words. Here is a 
government that dictates to the world, says to the world that 
they believe in the rule of law, that says that their model, 
the British style of legal systems is something to be emulated, 
and yet there is this black cloud over how they have dealt with 
you, Mr. McCord, and you as well, Mr. Finucane.
    What happened after those recommendations were made, and 
while answering this--and Ms. Winter, you might want to touch 
on this--Al Hutchinson, the new Ombudsman, does his office, 
does that have the power, does it have the passion, does it 
have the resources? Is the individual, Mr. Hutchinson himself, 
like Nuala O'Loan, who is very approachable, absolutely 
transparent, one of the most transparent public officials I 
have ever met?
    She just cared about getting to the truth. Wherever and 
whoever it may bring embarrassment to was not even an issue. Do 
we have that same kind of access to the new Ombudsman, and how 
well is that office functioning, Mr. McCord?
    Mr. McCord. First of all, the new recommendations haven't 
brought myself any closer to having convictions in the murder 
of my son. It hasn't brought the other families in Nuala's 
report any closer to justice. The British Government still 
won't put their hands up and admit that went on. Nuala quite 
rightly said that they accepted the report, but you know, we 
have listened to Nuala and the rest who speak here today in 
relation to collusion, policemen destroying documents. No 
police officers have been charged.
    I have been fighting for 12 years for justice for my son. 
You know, no one has explained to me how this affects national 
security. They are letting a serial killer stay on the books. 
It is not as if the Russians were coming. You know, and Mark 
Haddock wasn't the only one. It was right across the board and 
all the paramilitaries, and the Pat Finucane murder is the 
same. Families have been told lies, cover-ups. When new laws 
have been brought out, new regulations, the British Government 
has quite blatantly changed it to suit themselves.
    You know, all the families want, which people are entitled 
to throughout the world, is truth and justice, and we are being 
denied it by a policy of collusion that the British Government 
has done, not with criminals, with terrorist organizations. 
These are the people who preach to the rest of the world and 
condemn terrorist atrocities, but they are quite willing to pay 
terrorists back home in Northern Ireland all through the 
Troubles.
    Referring to the current Police Ombudsman, I have a current 
complaint there regarding Sir Ronnie Flanagan. I have no faith 
in the current Police Ombudsman, and the best way I can put it, 
it is like chalk and cheese dealing with him and dealing with 
Nuala. I have complete confidence in Nuala O'Loan. She is very 
up-front, very sympathetic, and you know, I have met Al 
Hutchinson and the complaint just went nowhere. I don't forget 
the words that Ronnie Flanagan said to me in front of my MP in 
'98 once after my son was murdered, ``Murderers don't work for 
the RUC,'' and we have a chief constable who told the father of 
a victim of one of the people who was working for him at the 
time lies.
    We want the truth. We are not asking for people to be hung 
up outside and put against the wall and shot. We want what 
every person in the world is entitled to, and that is truth and 
justice, but unfortunately, the British Government have denied 
us it. They arrested me many times in the past to try and 
silence me. One of the most positive things that has come out 
of this has been the formation of the Historical Enquiries 
Team, and they are dealing with Operation Ballast.
    They have arrested something like 12 members of Haddock's 
old mob, the majority of them informants, but as the man that 
is running HET has said to me, this could have and should have 
been done 12 years ago when your son was murdered, and I would 
like this opportunity now to say that I believe one of the ways 
forward to help these families in Operation Ballast is for 
Gordon Brown to give proper funding to the HET team, show that 
he means business. Don't be throwing them pennies.
    Give them a proper funding, and I am confident that this 
police unit, which is made up of Englishmen, will deliver for a 
lot of victims.
    Mr. Delahunt. I want to acknowledge the presence of Mr. 
Engel and also note that really the leader on these issues in 
the United States Congress is sitting in the audience, my 
colleague from Massachusetts, Richie Neal. Richie, if you want 
to come up to the dais, you are very welcome. I know that you 
know these issues as well as anyone, and I am sure you know 
more people in the audience than anyone here. So the choice is 
yours.
    Eliot, would you care to make a comment or ask a question?
    Mr. Engel. Yes, certainly, Mr. Chairman. Thank you, and I 
am glad that you mentioned Richie Neal, who is my classmate. We 
came to Congress together in January 1989, and I have been 
proud to work with him on these issues of concern involving 
Northern Ireland for 21 years, and I can tell you we have all 
worked hard, but no one has worked harder and has accomplished 
more than Richie Neal. So I am glad he is here, and you know, 
we first of all thank all three of you for your courage, 
particularly Mr. Finucane, who has been in my office with his 
mom many times, and Mr. McCord, and I had the pleasure of 
meeting Ms. Winter yesterday.
    You know, one of the things that really strikes me with all 
the things that have happened, there has been a complacency 
that has set in. People think that with the signing of the Good 
Friday Accords, everything is hunky-dory and we needn't worry 
about these things, and in fact, I would daresay that some of 
the people will accuse you, Mr. Finucane and you, Mr. McCord, 
of living in the past and wallowing in the past and bringing up 
things that are inconvenient.
    We have our former Vice President Al Gore who talks a lot 
about global warming and he produced his film called ``An 
Inconvenient Truth,'' and I would say what the three of you are 
doing is reminding all of us of an inconvenient truth: That 
there are still festering sores from the inequities in the 
North of Ireland, and that these sores will not go away, will 
never go away, but they certainly won't go away as long as the 
injustice is still there and the perpetrators of this collusion 
are not brought to justice.
    I just want to also acknowledge a good friend of mine in 
the audience, Malachy McAllister. We have been, and Mr. Smith 
and Mr. Neal and I and others have all been involved for many 
years in the fight to keep him in the United States, and that 
is something where many officials in the United States have 
been less than stellar about, and some have been very good and 
that is one of the reasons why Mr. McAllister is still here, 
but we need to also close the book on his case, and that is 
something in the United States that we must deal with, and it 
is he and others who are still kind of out there in limbo, so 
far being allowed to stay, but not really being allowed to 
integrate into U.S. society without any kinds of worries.
    It is a disgrace and it should end. I have gotten to know 
Malachy very well and frankly, I don't know how he sleeps at 
night knowing that his future is sort of uncertain and it is 
hanging by the whims of whoever happens to get elected or 
appointed to highest office. It should just end, and so we 
needn't be illusioned that somehow or other, we in the United 
States are looking at Britain and looking at their policies and 
are being critical of them, and rightfully, we should be, but 
we have enough of our own policies in the United States that 
have not been ameliorated through many, many long years, and we 
need to change.
    It always strikes me as, you know, for all the criticism of 
Britain, and I have been, believe me, there up-front publicly 
criticizing them for many years about their policies, much 
worse in the past than it is now, but we still have these 
festering sores, very often it seems to us that the United 
States Government is still fighting the fight, even where some 
in the British Government have thrown up their hands and said 
okay, we concede certain things and we put things in the past, 
some in the U.S. Government are still fighting the fight, still 
fighting the old British fight, and that is why Malachy and 
others don't yet have comfort to have their status regulated 
and approved to stay here indefinitely, and I just want to 
raise that, Mr. Chairman, because I think that we sometimes 
feel, well, you know, these other countries, these British, 
they are not doing right.
    We are not still doing right by our people, and we need to 
do it. I just have one question if you will----
    Mr. Delahunt. Eliot, if I can just make a point, because 
two of our witnesses have to leave almost in the next several 
minutes, so I am going to ask you to send your question to the 
committee.
    Mr. Engel. Okay.
    Mr. Delahunt. And I am just going to ask Congressman Neal 
if he wants to make any comment. Richie?
    Mr. Neal. Thank you, Mr. Chairman. I want to thank you and 
Mr. Smith and Mr. Engel. Your credentials on these issues are, 
in my judgment, consistent over decades. I am grateful for the 
notion that again today that you have raised the specter of 
some of these cases. Thirty-one years ago when Bobby Sands died 
as a young city council member in Springfield, I became 
immersed in the details of what was happening across the North 
of Ireland, and I must tell you that it is important to 
acknowledge today how far we have come, and the North of 
Ireland now is a society that is in transformation.
    Ancient adversaries are now working together in a power-
sharing government and political objectives are now pursued 
through exclusively peaceful means. People around the world now 
look to the North of Ireland as a model for successful conflict 
resolution. We are at another critical point in the peace 
process with talks progressing on the transfer of policing and 
justice powers from London to Belfast, and I have been in the 
middle of many of those discussions and negotiations.
    I am confident that that final act of devolution will be 
completed soon. What I think we need to remind ourselves of 
today is, we frequently were making progress even when we 
didn't see it, and much of that success is due to the tireless 
work of those in the Irish Government, the British Government, 
the American Government, whose representatives are here today, 
and indeed, the political parties in the North of Ireland who 
have committed themselves to a more prosperous and peaceful 
future.
    Prime Minister Brown and the Taoiseach Brian Cowen, they 
should be acknowledged as well for their continued interest and 
leadership. I think the United States in its role as an honest 
broker has also has also helped move the process forward at 
critical moments and we should applaud Secretary Clinton for 
this past week and the success that she had in her visit to the 
island where she challenged the political parties to move 
forward for the last pivotal piece in the puzzle.
    When it comes to the pursuit of justice and accountability 
and the truth in the North, I have had a long history of being 
outspoken, and I think it is important to recognize where many 
of these issues turned out. I supported the Guilford Four, who 
were wrongly convicted. I spoke out on behalf of the Birmingham 
Six, whose convictions were overturned. I fought vigorously 
against the deportation of Joe Doherty, including a meeting in 
the Attorney General's office, Janet Reno, and I certainly was 
highly critical of the killing of the unarmed Gibraltar Three.
    The deportee case turned out to be a successful one for us, 
and I certainly encouraged aggressively an independent inquiry 
into the events of Bloody Sunday, which I think remains the 
most important element of our discussions about the past, and I 
hope that Lord Saville's report will be published soon. I have 
also urged Hugh Ward and Shaun Woodward to pay attention to 
these high-profile cases, as recently as this past summer in 
London.
    I have said publicly and privately that an independent 
inquiry into several of the most high-profile and emblematic 
cases would help to heal old wounds and address the past. I 
believe these inquiries would promote reconciliation and 
healing and bring a measure of closure for many of those 
touched by the Troubles. In my opinion, there are four cases 
that deserve a full and public hearing: Raymond McCord, Jr., 
Pat Finucane, Rosemary Nelson and the Billy Wright case are the 
most prominent, along with a full and honest independent 
inquiry into the events of Bloody Sunday.
    I want to say this as well, that when you talk about 
success that we don't see, it is members of the Nationalist 
community in the North who have urged me to stand up on behalf 
of Ray McCord because they think that that is a very important 
part of the healing process, and he knows that and I have 
passed that information on to him before. I have known 
Geraldine Finucane and her family for two decades. I remember 
when they were all young and I met them in Derry for the first 
time, and I promised her that I am going to continue my efforts 
to secure an independent inquiry into the death of her husband. 
Her family is here today and we want to acknowledge them for 
their continued courage.
    I have also made a commitment to Ray McCord, as he knows, 
and I hope that others here will sign a letter to Prime 
Minister Gordon Brown requesting that he personally meet with 
Mr. McCord. As chairman of the Friends of Ireland, I want to 
ask my colleagues to co-sign that letter and we will get it off 
very, very quickly, and I know with Ray's testimony today, it 
only helps our argument. If we are to overcome the divisions 
that exist in the North of Ireland, we must commit ourselves to 
a process of reconciliation.
    After years of conflict, I believe the people in the North 
want to live a peaceful and prosperous life, and I do 
acknowledge that we can't revisit every case, but I do think 
these high-profile cases would go a long way, with some others, 
of ensuring that as we go forward there will at least be an 
honest acknowledgment of what happened in the past. We have had 
much success, and I hope that public and independent inquiries 
will proceed and I hope that the witnesses that are here today 
will continue this fight, because I must tell you, I think that 
the American dimension has been indispensable in helping us to 
bring these cases forward.
    I want to thank you again, Mr. Chairman, for providing the 
time to me.
    Mr. Delahunt. Thank you, Congressman, and thank you for the 
statement, and I am sure that all of us will sign that letter 
to the Prime Minister. I am going to end with my friend and 
colleague to my left, to my physical left, I should say, Mr. 
Smith, who has a question for Jane Winter.
    Mr. Smith. Thank you very much. Well, I do want to thank 
you again, Chairman Delahunt, for this extremely important 
hearing and the timeliness of it, and so I thank you for 
arranging for this today. You know, a father fighting for 
justice for his murdered son, a son fighting for justice for 
his murdered dad, both seeking an end to the, as Mr. McCord put 
it earlier, cover-ups and lies--no cover-up, however, is ever 
absolute. No cover-up is forever and I think it is important 
that the British Government know that this Congress, in a 
bipartisan way, will never cease in getting to the facts, 
getting to the truth, and most importantly, getting to the 
prosecutions that I think just have to occur in order for there 
to be true reconciliation and healing.
    I would like to ask Ms. Winter, if you could, to comment on 
the current Ombudsman, and also on her about, you know, all 
prosecutors have discretion, prosecurial discretion as to what 
they emphasize. Where you put your resources makes all the 
difference in what you actually ultimately get convictions on. 
In the cases of Pat Finucane and of course, Mr. McCord, Raymond 
McCord, how would you rate whether or not they are serious 
about going wherever the information, wherever the evidence may 
lead? And I thank you again.
    Ms. Winter. Thank you, Mr. Smith. Could I just preface my 
remarks by drawing the committee's attention to the six 
recommendations at the end of my testimony for action, which I 
hope that the committee will consider taking on----
    Mr. Delahunt. So noted.
    Ms. Winter [continuing]. On behalf of both Mr. McCord and 
Mr. Finucane, as well as other matters. In relation to the 
Police Ombudsman, I do believe that Al Hutchinson is as 
independent as Nuala O'Loan. He has a very different style and 
I think he has less of an appetite for looking at the past and 
more of an appetite for dealing with current policing. So I 
agree with Raymond McCord, there is an element of chalk and 
cheese there. It is a different approach, but I don't believe 
that he lacks independence.
    I do believe, however, that he lacks resources. Nuala 
O'Loan said that she wasn't sure, but I am here to tell you 
that I have spoken recently with the Ombudsman's office and 
they are severely under-resourced, and----
    Mr. Smith. What does that mean in terms of actual money?
    Ms. Winter. I am afraid I don't know the actual figures, 
but they were talking about having to make very significant 
cuts, which clearly means that they cannot carry out their 
duties in any kind of timely fashion, which is not helpful, and 
the Historical Enquiries Team is in the same boat, and I 
absolutely echo what Raymond has said about needing to resource 
them fully until such time as any kind of amalgamation may take 
place between the two organizations for dealing with cases 
arising out of the conflict.
    In relation to the director of Public Prosecutions, I 
regret to say that over the years, we have had many, many 
questions about decisions taken by his office, not just in 
relation to the Finucane and McCord case, but in many other 
cases where there have been no reasons given for failing to 
prosecute cases which seem to us to merit prosecution, and 
sometimes prosecutions have gone ahead but deals have been done 
which have rendered the outcome of the case a travesty of 
justice for the victims, and there have recently been some 
moves by the DPP's office to make themselves more transparent 
and we really welcome those, but there needs to be a lot more 
done before we would consider them to be a fully functioning 
independent office.
    Mr. Delahunt. Well, again, I want to extend the gratitude 
of the committee for your appearance here, for your testimony, 
and it was an excellent hearing. Thank you, and God speed.
    [Whereupon, at 1:10 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>McMahon statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
